              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report

Demolition and Replacement of
Hanford's Radiological Calibration
Laboratory




DOE/IG-0711                                 December 2005
REPORT ON DEMOLITION AND REPLACEMENT OF HANFORD'S
RADIOLOGICAL CALIBRATION LABORATORY



TABLE OF
CONTENTS


  Demolition and Replacement of Calibration Laboratory

  Details of Finding                                     1

  Recommendations and Comments                           5


  Appendices

  1. Objective, Scope, and Methodology                   7

  2. Prior Audit Reports                                 9

  3. Management Comments                                 10
____________________________________________________________

Programmatic Needs   The planned replacement of Hanford's Radiological Calibration
for Calibration      Laboratory, as currently conceived, will not meet the
Services             Department of Energy's programmatic needs. Specifically, the
                     replacement facility will not have the capability to serve the
                     mission needs of the EM program at the Hanford site, even though
                     the EM program has, historically, been the largest user of the
                     Laboratory.

                     The planned facility will not include approximately 10,000 square
                     feet of "dry" Laboratory space needed to support EM clean-up
                     activities. The "dry" Laboratory space enables bench-top
                     calibrations and dosimetry processing on the materials and
                     equipment being tested prior to and after irradiation. Loss of the
                     space will also hinder the performance of certain neutron services
                     for dosimetry and calibration work. Since there are very few
                     providers of neutron services, Hanford's EM programs could have
                     difficulty in replacing this capability.

                     Annually, the existing Radiological Calibration Laboratory
                     performs a heavy workload in support of EM programs, including:

                         •   More than 48,000 internal and external dosimetry
                             assessments on personal dosimeters, fecal and urine
                             samples, and chest and body counts; and,

                         •   Approximately 13,000 radiological calibrations, mostly on
                             portable instruments such as constant air monitors,
                             detectors, meters, and electronic dosimeters.

                     If the Department continues to proceed with its present plans, the
                     EM program will lose support for these dosimetry and calibration
                     services after 2009, when the facility is scheduled to be
                     demolished. Laboratory management estimates that the Hanford
                     clean-up work driving much of the calibration services will
                     increase slightly or remain stable for the next 15 years, well
                     beyond the currently planned date for cessation of operations of the
                     Radiological Calibration Laboratory.

                     Although the existing Laboratory could support the anticipated
                     workload, the design of the replacement facility will not support
                     EM needs. Rather, the Department's new facility is being designed
                     to support the Office of Science's (Science) needs, as well as some
                     of its other customers such as the National Nuclear Security
                     Administration and the Department of Homeland Security.




Page 1                                                              Details of Finding
____________________________________________________________

                  It should be noted that EM management at Hanford is aware that
                  its needs will not be supported in the new Laboratory and has
                  begun to explore options to ensure that these capabilities are
                  maintained. One alternative currently under consideration is to
                  retain the existing Radiological Calibration Laboratory to
                  exclusively support EM programs. To do this, EM will remove the
                  Radiological Calibration Laboratory from its demolition plans and
                  modify the scope of work for the clean-up contractor to include
                  performing dosimetry and calibration services in the facility.
                  Another alternative is to out-source the work to private suppliers
                  across the nation. Regardless of how EM ultimately resolves to
                  meet its future needs, Science plans to build a new calibration
                  Laboratory that will not include capacity to perform EM work. In
                  fact, the Department was scheduled to approve the preliminary
                  design package for the "Capability Replacement Laboratories" in
                  October 2005.

Integration of    In planning for the replacement facility, the Department did not
Resources and     adequately integrate the resources and needs of its Hanford
Needs             offices or fully consider alternatives to building a replacement
                  Laboratory. Specifically, the Offices of Science and EM, which
                  have significant activities at the Hanford site, did not effectively
                  coordinate their available resources to support common mission
                  needs. Also, in evaluating its alternatives, Science did not
                  formally consider retention of the existing Laboratory to meet its
                  mission need.

                                               Integration

                  The Offices of Science and EM did not effectively integrate their
                  planning efforts to support the multi-programmatic needs of the
                  three Hanford offices. Rather, Science focused on meeting its
                  facility construction need while EM focused on meeting its
                  Richland Operations Office and Office of River Protection need
                  for procurement flexibility. For example, to ensure alternate
                  facilities are available after EM closes the existing Laboratory in
                  2009, Science took action to construct new facilities within four
                  years and has nearly completed the preliminary design package for
                  the Capability Replacement Laboratories. However, the team
                  planning the facilities limited the scope of the design to meet only
                  the needs of those customers providing financial support for the
                  new Laboratory. Since EM would not commit budgetary resources
                  to the new Laboratory, the team proceeded to plan a facility
                  without the space necessary to support EM work.




Page 2                                                             Details of Finding
____________________________________________________________

                  EM's Richland Operations Office and Office of River Protection in
                  May 2005, chose not to commit resources to the new calibration
                  Laboratory in order to keep the Department's procurement options
                  open and to investigate other options for calibration and dosimetry
                  services, despite Science's immediate need for financial
                  commitment to the new facility. The Richland Operations Office
                  has the option to incorporate these services into a major site
                  contract scheduled to be re-bid in 2006, which provides EM with at
                  least one more year to make a specific decision on maintaining
                  needed services. However, by delaying decisions on how to secure
                  calibration services in the future, the Richland Operations Office
                  and the Office of River Protection effectively excluded their
                  programs from participating in Science's construction plans for a
                  replacement facility.

                                          Cost-Benefit Analysis

                  In addition, the Department did not perform a cost-benefit analysis
                  to fully consider the range of reasonable alternatives, including:

                     •   Retaining the existing Radiological Calibration Laboratory
                         and removing it from the demolition list;

                     •   Replacing the existing facility with one capable of meeting
                         all programmatic needs, including the needs of EM
                         programs; or,

                     •   Replacing the existing facility with one capable of meeting
                         some programmatic needs and outsourcing the rest.

                  In reviewing the Critical Decision documents supporting the
                  replacement laboratory, we noted that the Mission Need Statement
                  prepared by Science did not include consideration of the first two
                  alternatives, or justify the third alternative in a formal cost-benefit
                  analysis. This appears to contradict Departmental policy as stated
                  in DOE Manual 413.3-1, Project Management for the Acquisition
                  of Capital Assets. According to this guidance, use of, or
                  modification of, an existing facility should be considered when
                  planning new capital assets.

                  Management informed us that the alternative to use or modify the
                  current Laboratory was excluded when Science decided not to
                  accept a transfer of EM's landlord responsibility for the facility.
                  However, the Department's management could not locate any
                  documentation which supported this assertion. In our judgment,
                  until the range of reasonable alternatives is fully and formally



Page 3                                                              Details of Finding
____________________________________________________________

                        considered, the Department cannot be assured that it made the best
                        decision on how to provide laboratory services. The window of
                        opportunity to include space for EM work in the new facility is
                        rapidly closing. After approval of the detailed design and project
                        baseline documents planned for 2006, the impacts to cost and
                        schedule prohibit major changes in the facility's design.

                                                  Recent Progress

                        Although we question the level of integration of programmatic
                        needs and a lack of a formal cost-benefit analysis, we did note a
                        recent increase in efforts by the three offices to communicate
                        regarding future planning at the Hanford site. For example,
                        Science's Pacific Northwest Site Office hosted a workshop in
                        November 2004 to identify specific customer needs for Laboratory
                        services and continued to solicit input from EM when it did not
                        attend the workshop. Later, in March 2005, the Richland
                        Operations Office hosted a workshop to discuss future dosimetry
                        and calibration needs, which included representatives from the
                        Office of River Protection and Science's Pacific Northwest
                        National Laboratory. These groups have also begun
                        communicating specifically on funding needs and commitment
                        deadlines. However, unless further action is taken quickly before
                        Science commits to a specific construction design, potentially
                        more cost effective options will no longer be available for
                        consideration.

Increased Costs         If the Department continues on its current course, it risks loss of
and Lost Capabilities   required capabilities and increased costs for duplicate facilities.
                        Specifically, the Department may:

                            •   Continue with plans to demolish the existing Radiological
                                Calibration Laboratory and construct a new facility –
                                roughly estimated to cost between $40 to $60 million –
                                that is unable to serve the Department's EM programs.

                            •   Construct a new facility, and, at the same time, take action
                                to maintain the existing facility resulting in increased
                                facility and operations costs. For example, if EM decides
                                to maintain the existing Laboratory, it would cost an
                                estimated $2 million to reroute utilities that connect it with
                                other 300 Area buildings that will be demolished. Also,
                                with two Laboratories, radiological sources necessary to
                                support calibration and dosimetry work would have to be
                                duplicated as well.




Page 4                                                                   Details of Finding
____________________________________________________________


                  Additionally, operational efficiencies in dosimetry and calibrations
                  may be lost. For example, the Richland Operations Office
                  informed us that EM could experience a significant increase in the
                  turnaround time for their dosimetry and calibration needs if they
                  must use service providers outside the Hanford area. For instance,
                  one contractor experienced turnaround times from one to two
                  months when it outsourced calibrations to a provider in New
                  Mexico during 1997 and 1998. This contrasts with Radiological
                  Calibration Laboratory contracts that provide similar Laboratory
                  services and currently require turnaround times from eight to
                  fifteen workdays.


RECOMMENDATIONS   We recommend that the Assistant Secretary for Environmental
                  Management and the Director, Office of Science, take action to:

                     1. Evaluate the integrated programmatic needs for calibration
                        and dosimetry services of both EM and Science at the
                        Hanford site.

                     2. Perform a thorough cost-benefit analysis on the options
                        available to meet the needs identified. These options
                        should include:

                             a. Retaining the existing Radiological Calibration
                                Laboratory and removing it from the demolition
                                list;

                             b. Replacing the existing facility with one capable of
                                meeting all programmatic needs, including those of
                                EM; and,

                             c. Replacing the existing facility with one capable of
                                meeting some of the programmatic needs and
                                outsourcing the rest.

                     3. Select the most viable option and ensure that it is available
                        in a timely manner to meet mission requirements.


MANAGEMENT        The Assistant Secretary for Environmental Management and the
REACTION          Director, Office of Science, generally concurred with the finding
                  and recommendations. Management stated that, consistent with
                  the recommendations, a cost-benefit analysis of appropriate
                  options is ongoing, integrating the programmatic requirements of



Page 5                                        Recommendations and Comments
____________________________________________________________

                  all interested parties. Additionally, management stated that the
                  Department is continuing and expanding the coordination that the
                  Department's Office of Inspector General recognized as having
                  occurred since late 2004.

                  Furthermore, in separate detailed comments, management
                  emphasized that EM is taking action to ensure that dosimetry and
                  calibration needs will be met. Management stated that EM will
                  have a future contractual arrangement to provide dosimetry and
                  calibration needs. Also, management noted that the new
                  Laboratory is being designed and sized accordingly.

AUDITOR           Management's comments are responsive to the recommendations.
RESPONSE          We recognize that management plans to act to provide necessary
                  dosimetry and calibration services to EM and to design and size
                  the new Laboratory according to Science's needs. Our concern is
                  that the Department's actions to provide needed services and
                  construct a new Laboratory should be based on a complete analysis
                  of available alternatives to promote efficiencies across
                  programmatic lines. Management's commitment to complete a
                  cost-benefit analysis of alternatives and to fully integrate
                  programmatic needs is responsive to our concerns.




Page 6                                                                 Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the planned
              replacement of Hanford's Radiological Calibration Laboratory will
              meet programmatic needs.


SCOPE         The audit was performed from February 2005 to September 2005,
              at the Richland Operations Office, Pacific Northwest Site Office,
              Office of River Protection in Richland, Washington, and the
              Pacific Northwest National Laboratory (PNNL) on the Hanford
              site. The scope of the audit was limited to activities associated
              with the Department's planning efforts for clean up of the 300 Area
              from Fiscal Year 2000 through 2005 and its effect on the existing
              Radiological Calibration Laboratory at the Hanford site; as well as
              the Office of Science's planning activities associated with the
              Capability Replacement Laboratories.


METHODOLOGY   To accomplish the audit objective, we:
                  • Interviewed key personnel in the Richland Operations
                    Office, Pacific Northwest Site Office, Office of River
                    Protection, and Pacific Northwest National Laboratory
                    responsible for providing or obtaining radiological
                    calibration services;

                  • Reviewed planning documentation regarding
                    environmental clean up of Hanford's 300 Area;

                  • Reviewed planning documentation regarding replacement
                    and retention of PNNL capabilities in the 300 Area;

                  • Researched Federal and Departmental regulations
                    regarding capital asset management;

                  • Reviewed findings from prior audit reports regarding
                    radiological calibration Laboratories;

                 •   Assessed available documentation associated with plans to
                     demolish and replace Hanford's calibration services
                     capabilities;

                  • Assessed internal controls and performance measures
                    established under the Government Performance and Results
                    Act of 1993; and,




Page 7                                  Objective, Scope, and Methodology
Appendix 1 (continued)

                         • Interviewed key personnel in the Office of Science and
                           Office of Environmental Management regarding
                           management decisions for PNNL facilities and the 300
                           Area.

                    The audit was performed in accordance with generally accepted
                    Government auditing standards for performance audits and
                    included tests of internal controls and compliance with laws and
                    regulations to the extent necessary to satisfy the audit objective.
                    Specifically, we tested compliance with respect to the
                    Department's DOE Manual 413.3-1, Project Management for the
                    Acquisition of Capital Assets. The weaknesses noted have been
                    addressed in the body of the report. Because our review was
                    limited, it would not necessarily have disclosed all internal control
                    deficiencies that may have existed at the time of our audit. Also,
                    we considered the establishment of performance measures in
                    accordance with the Government Performance and Results Act of
                    1993 as they relate to the audit objective. We found no
                    performance measures related specifically to the scope of this
                    audit. Finally, since we did not rely on automated data processing
                    equipment to accomplish our audit objective, we did not assess
                    automated data processing systems.
                    Management waived the exit conference.




Page 8                                          Objective, Scope, and Methodology
Appendix 2

                                  PRIOR AUDIT REPORTS


  •   Idaho Operations Office Planned Construction of a Waste Vitrification Facility
      (DOE/IG-0549, April 2002). This audit identified problems with the Department's
      considerations of alternatives to construct a vitrification facility in Idaho. Additionally,
      this report identified weaknesses with the Department's consideration of alternatives to
      construction of a new Health Physics Instrumentation Laboratory. The audit made
      recommendations to ensure full evaluation of alternatives in the construction of new
      facilities.

  •   Environmental Monitoring and Health Physics Laboratories at the Savannah River Site
      (ER-B-98-02, October 1997). The audit concluded that alternatives to building two new
      facilities had not been fully analyzed and the Department could not be certain it had
      chosen the most cost-effective solution to replace aging buildings. Specifically, the
      contractor over the project did not perform life-cycle cost analyses and periodic
      reassessments. As a result, the Department was planning to spend $30 million for
      facilities that may not be needed.




Page 9                                                                       Prior Audit Reports
Appendix 3




Page 10      Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
                                                                    IG Report No. DOE/IG-0711

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
